ASSESSMENT
              ASSESSMENT OF GPO’S TRANSITION
REPORT       PLANNING FOR INTERNET PROTOCOL
08-12                   VERSION 6

                      September 30, 2008




        OFFICE OF INSPECTOR GENERAL
                                                                  Memorandum
                                                                   OFFICE OF THE INSPECTOR GENERAL
                          WASHINGTON, DC 20401




    DATE:      September 30, 2008

REPLY TO
 ATTN OF: Assistant Inspector General for Audits and Inspections

 SUBJECT:      Final Report on Assessment of GPO’s Transition Planning for
               Internet Protocol Version 6
               Report Number 08-12

      TO:      Chief Information Officer


      The Office of the Inspector General (OIG) has completed an assessment of GPO’s
      planning for the transition from Internet Protocol version 4 (IPv4) to version 6 (IPv6).1
      The Office of Management and Budget (OMB) recently announced that all Executive
      branch agencies reported meeting a June 30, 2008 deadline for successfully
      demonstrating IPv6 capability for their network backbones. While GPO was not required
      to meet the OMB deadline, IPv6 capability will provide certain benefits to GPO as
      industry provides products and services that are IPv6-enabled.

      This report contains two recommendations made by the OIG to enhance planning for the
      IPv6 transition at GPO, and management’s response to those recommendations. Our
      evaluation of management’s response has been incorporated into the body of the report
      and is included in its entirety in Appendix A. We consider management’s proposed
      actions responsive to each of the recommendations. Recommendation 1 will remain open
      for reporting purposes until the proposed corrective action is completed. We are closing
      recommendation 2 upon issuance of this final report.

      Background

      IPv6 is a developing protocol and industry is currently designing products and services to
      use features of IPv6 beyond increased address space. Anticipated benefits of IPv6
      include:




      1
        Internet routing protocols are used to exchange information across the Internet. The services are
      transparent to the user of the computer and are built using a layered approach. Protocols are standards that
      define how computer data is formatted and received by other computers.


                                                           1
                 Labeling IPv6 information channels for special handling, such as higher
                  qualities of service2, and
                 Better authentication, data integrity, and data confidentiality.3

OMB Memorandum Number 5-22 required all Executive Branch agencies to prepare
individual agency routing services to be compatible with IPv6 routing4 by June 30, 2008.
The memorandum does not require that agencies discontinue or block IPv4 routing;
rather it is intended to have agencies build out IPv6 services from their core network
routing infrastructures.

The National Institute of Standards and Technology (NIST) produced detailed technical
guidance informing agency transition planners of options available to get IPv6 services
minimally functional at their agency. Additionally, the CIO Council authored a set of
minimum requirements known as the “Demonstration Plan” to provide agencies with
compliance testing criteria specifically at core edge routing devices.5 Finally, NIST will
issue a standards document in the near future that will detail the federal requirements for
secure and interoperable network products in the global IPv6 marketplace.

While GPO is not required to comply with OMB requirements, IPv6 compliance is
important because IPv4 address allocations are a finite resource. The American Registry
for Internet Numbers6 reports that approximately 19 percent of the IPv4 address space
remains. While it does not appear that GPO will exhaust its address space anytime soon,
the Internet at large will and therefore a shift to IPv6 services is highly likely. 7 Because
information exchange is critical to GPO’s transition to a modern digital agency, GPO
should be capable of communicating with other federal agencies and public sources that
successfully transition to IPv6. Therefore, GPO should be planning for the establishment
of secure, shared IPv6-enabled network services during regular technology upgrade
cycles. As new GPO business processes are established, IPv6 capabilities to foster
security and robustness should be considered.




2
  Quality of service features allow for routing of services that cannot withstand any disruption in the flow
of information. For example, voice and video conversations cannot withstand long and choppy pauses and
therefore require constant information flow through the network.
3
  Authentication in computing is verifying the identity of a subject requesting the use of a system and/or
access to a network resource. Data integrity ensures the data is valid and accurate as intended.
Confidentiality serves to keep information secret and readable to intended recipients.
4
  Internet routing is one of the five layers of the Internet protocols. It allows computers to be identified
uniquely across a great distances of physical separation and distinct computing hardware and software.
5
  The router that connects the agency directly to Internet routers.
6
  The American Registry for Internet Numbers is one of five Regional Internet Registries. The Regional
Internet Registries control the allocation of IP addressing for the world.
7
  As of January, 2008 GPO owned enough IP addresses to allocate up to 16,384 independent routing
devices and 65,534 independent client and server addresses.


                                                     2
Findings

GPO plans to transition to IPv6 as part of a broad acquisition plan to update its IT
infrastructure. Specific target dates for these updates have not been finalized. The OIG
believes that the planned transition is a good long-term approach. In the short-term, GPO
should consider implementing OMB’s minimum IPv6 requirement, the NIST defined
dual stack,8 at its core edge routers. Implementing this minimum requirement will ensure
that technical resources such as GPO’s new Federal Digital System (FDsys) are capable
of ingesting information from IPv6 sources.

GPO does not have a large set of edge core routers. Two active routers support GPO
Headquarters operations, and one router supports the new Secure Production Facility in
Mississippi. GPO’s Information Technology and Systems network personnel are capable
of programming the IPv6 dual stack into the core edge routers. A dual stack
implementation will allow GPO to add IPv6 routing and services slowly across its
internal network.


Recommendations

The GPO Chief Information Officer should:

           Recommendation 1. Require implementation of the NIST defined dual stack
           methodology at GPO’s core edge routing devices.

Management’s Response. Concur. The GPO network modernization project will
ensure that this requirement is fully implemented at all edge routing devices in the GPO
network.

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved but undispositioned, and will
remain open for reporting purposes until the proposed action is completed. The complete
text of management’s response is in Appendix A.

           Recommendation 2. Establish an IPv6 assessment team to monitor the
           availability of IPv6 products and services and make recommendations on how
           GPO can best leverage the benefits of IPv6.

Management’s Response. Concur. This will be done as part of the GPO network
modernization project, which is funded and is now underway (see Appendix A).

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. We are closing the recommendation upon issuance of this report.


8
    An Internet Node capable of communicating using either or both of IPv4 and IPv6.


                                                     3
We appreciate GPO management’s cooperation during the assessment. If you have any
further questions concerning this report, please contact Mr. Brent Melson, Deputy
Assistant Inspector General for Audits and Inspections, at (202) 512-2037, or me at
(202) 512-2009.



(Original signed by)

Kevin J. Carson
Assistant Inspector General for Audits and Inspections


cc:
Chief of Staff
Chief Management Officer
Chief Technology Officer




                                           4
Appendix A. Management’s Response




                5
                Appendix B. Status of Recommendations


Recommendation No.     Resolved   Unresolved   Open/ECD*   Closed
          1                X                      TBD
          2                X                                 X
*Estimated Completion Date




                                     6
